           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         CONTRACT AUDIT OF
         HEWLETT PACKARD

    September 2010   A-04-10-11012




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 15, 2010                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Contract Audit of Hewlett Packard (A-04-10-11012)


           OBJECTIVE
           Our objectives were to determine whether (1) the products, services, and related costs
           Hewlett Packard (HP) charged the Social Security Administration (SSA) under Contract
           Number SS00-05-40015 adhered to the negotiated contract terms and applicable
           regulations and (2) Agency personnel properly monitored the contract.

           BACKGROUND
           As part of its workstation replacement project, in September 2005, SSA entered into a
           Blanket Purchase Agreement (BPA) with HP to purchase computers, monitors,
           peripheral equipment, accessories, and maintenance services. The ordering period
           under this BPA was 36 months from the date of award with an additional 48-month
           warranty period for each workstation ordered. The cost of the services under the BPA
           was estimated at about $115 million. SSA placed the last call order1 for computer
           equipment in September 2008. At that time, SSA’s Project Officer (PO) for this contract
           estimated the Agency had ordered about 86,000 computers and 109,000 monitors. As
           of August 2009, SSA had paid HP about $95.2 million under the BPA.

           SSA purchased computer equipment for various SSA components, including
           Headquarters, regional offices, field offices, Office of Disability Adjudication and Review
           sites, and program service centers. The Agency also purchased computer equipment
           for State disability determination services. 2 In total, SSA purchased equipment for
           about 2,500 components. HP used a shipping company to “drop ship” 3 the computer
           1
            A call order is an order placed against the BPA. SSA placed 164 call orders against the BPA, and 2 call
           orders were later canceled.
           2
            Disability determination services are generally State-run agencies that make disability determinations for
           SSA using the Agency’s regulations, policies, and procedures.
           3
            Equipment is “drop shipped” when it is delivered to a site and unboxed, and the trash is removed by the
           delivery company if the site desires.
Page 2 - The Commissioner


equipment to the sites identified on the call orders. Table 1 details, by SSA component
type, the number of computers and monitors ordered, as specified in the call orders.

    Table 1: Distribution of Computers and Monitors Ordered by Component
                                                                    Number
                                                      Number of       of
                Type of Component
                                                      Computers     Monitors    Total
Field Offices                                              32,771     32,902    65,673
State Disability Determination Services                    17,233     30,284    47,517
Headquarters                                               11,946     14,742    26,688
Processing Service Centers                                 11,091     11,669    22,760
Office of Disability and Adjudication
Review Offices                                              4,745    10,100  14,845
Regional Offices                                            3,615     4,956   8,571
Teleservice Centers                                           985     1,010   1,995
Other                                                       3,543     4,263   7,806
                                             Totals        85,929   109,926 195,855

The prices for the equipment were based on the General Services Administration
schedule, Contract Numbers GS-35F-4663G and GS-35F-0066N. Table 2 details the
contracted items and the costs agreed upon under the BPA.


                         Table 2: Contract Items and Prices
                                    Unit Price    Unit Price     Unit Price
             Item Description        Year 1        Year 2         Year 3
           Desktop Computer           $599.95        $599.95        $599.95
           21” Monitor                $609.37        $557.03        $504.68
           19” Monitor                $285.99        $285.99        $272.38
           1GB Memory                 $115.00        $115.00        $115.00
           2GB Memory                 $230.00        $230.00        $230.00
           Keyboards                    $83.15        $83.15         $83.15
           Surge Protector               $9.90          $9.90          $9.90
Page 3 - The Commissioner


The Office of Budget, Finance and Management's (OBFM) mission is to provide
leadership and oversight on key SSA programs and initiatives. The Office of Acquisition
and Grants (OAG), a component within OBFM, is responsible for issuing and
administering SSA contracts, purchases, and grants. The Contracting Officer,
appointed by OAG, is responsible for the award and administration of SSA contracts.
OAG also appoints an Agency-authorized representative as the Government PO to
monitor contract technical requirements, including oversight of the contractor’s progress
and invoices. The PO appointed to this contract was in the Office of
Telecommunications and Systems Operations (OTSO), Distributed Data Processing
Management Staff. 4 The Office of Finance, also a component within OBFM, directs
SSA’s central accounting activities and payments to contractors. For a detailed
description of the Project and Contracting Officers’ duties, see Appendix C.

SCOPE AND METHODOLOGY
We reviewed the contract and contract modifications. To assess contract compliance,
we tested the contractors’ invoices to ensure the type of equipment and prices charged
were correct and that SSA made accurate and timely payments. We also tested SSA
procedures for confirming the receipt of computer equipment.

HP’s invoices and monthly Inventory Reports 5 were the only sources of serial numbers
for the computers and monitors HP billed and reported as delivered. However, HP’s
invoices did not consistently include serial numbers for the billed computer and
monitors. Therefore, we could not rely on the invoices to develop a complete population
of computers and monitors. Further, we were unable to reconcile the quantity of
computers and monitors detailed on HP’s monthly Inventory Reports to the quantities
ordered and billed. Accordingly, we were unable to rely on these reports to establish an
accurate population of computers and monitors. Because both sources of equipment
serial numbers proved to be unreliable, we did not select a sample of computers and
monitors to determine whether the asset existed and met the technical specifications
outlined in the contract. Without such tests, we were unable to determine whether HP
fully complied with the contract terms.

See Appendix B for more information regarding our scope and methodology.




4
  The Distributed Data Processing Management Staff component was renamed the Division of Systems
Installation and Integration Management in October 2008, after the HP contract period.
5                                                                                               th
  According to the BPA, the Contractor shall provide the PO and Contracting Officer, on the 10 of every
month, a complete inventory of all computers and monitors delivered. HP’s monthly Inventory Report
should include for each delivery site, at a minimum, the related call order number, SSA’s office site code,
the quantity and serial numbers of the computers and monitors delivered, delivery date, and delivery
address.
Page 4 - The Commissioner


RESULTS OF REVIEW

We were unable to determine whether the products, services, and total costs HP
charged adhered to the negotiated contract terms and applicable regulations.
Specifically, SSA did not reconcile the total quantity of equipment it ordered with the
quantity of equipment HP’s records indicated it delivered. Our attempts to reconcile
these records were unsuccessful. Additionally, other variances existed among HP’s
inventory records, the PO’s records, and HP’s invoices. Given these wide variances,
we were unable to rely on the equipment totals and could not perform certain audit
tests.

While we recognize challenges the Agency may have faced in overseeing the purchase
of such a large quantity of computer equipment, we believe SSA should have had a
comprehensive system for tracking and reconciling equipment orders, delivery receipts,
quantities invoiced, and asset inventory lists. In our September 2006 report, The Social
Security Administration’s Oversight of the Dell Workstation Blanket Purchase
Agreements under the General Services Administration’s Schedule Contract
GS-35-F-4076D (A-15-06-16073), we stated that SSA’s contract oversight could be
improved to ensure contracted goods are received and reconciled to the Agency’s
accounting records. Based on the findings presented in this report, we believe SSA’s
contract oversight procedures for purchases of large quantities of computer equipment
continue to need improvement.

To SSA’s credit, the type of equipment and unit prices HP charged to SSA agreed with
the contract terms. Additionally, HP submitted invoices to SSA promptly and SSA made
timely payments.

SSA’S CONTROLS COULD BE IMPROVED TO HELP ENSURE CONTRACTOR
PERFORMANCE

Given the large volume of computers and monitors purchased and cost of this BPA, we
believe SSA needs a comprehensive system for tracking and reconciling equipment
orders, delivery receipts, quantities billed, and asset inventories to improve contract
oversight. We found the total quantity of computers and monitors ordered did not agree
with the quantities on (1) the PO’s call order tracking worksheet, (2) HP’s Inventory
Reports, and (3) HP’s invoices. Table 3 illustrates the varying figures we obtained from
the relevant sources. Using these figures, in a best-case scenario, SSA could owe HP
about $98,000 for 345 computers and monitors ordered but not billed. On the other
hand, if we relied on HP’s Inventory Reports, SSA overpaid the contractor
approximately $2.9 million for 6,386 computers and monitors billed but not received.
Page 5 - The Commissioner


                       Table 3: Variances in Contract Records
                                                 Total     Variance
                                    Number                                      Variance to
       Data           Number of               Computers     to Call
                                      of                                         Invoices
      Source          Computers                   and        Order
                                   Monitors                                        (paid)
                                               Monitors       Total
 Call Orders              85,929     109,926      195,855                                345
 PO’s Tracking
 Sheets                     86,036      108,787        194,823        (1,032)           (687)
 HP’s Inventory
 Reports                    82,376      106,748        189,124        (6,731)         (6,386)
 Invoices (Paid)            85,918      109,592        195,510          (345)

OTSO had not identified these variances before the audit because its oversight
procedures did not include an overall reconciliation of these records. Further, because
the PO did not reconcile these data, OTSO was unable to provide the specific number
of computers and monitors delivered and paid for under the contract.

OTSO acknowledged that HP’s inventory report was incomplete and that this condition
may have affected the accuracy of SSA’s asset inventory records. However, OTSO
emphasized that it did not rely on HP’s Inventory Report to confirm the receipt of the
computer equipment or authorize payment. Rather, the PO generally relied on shipping
contractors’ records to confirm receipt of equipment and verify invoiced quantities.
OTSO acknowledged oversight procedures could be improved to better track, monitor,
and document the numerous oversight actions that occur during this type of contract.

Although we attempted to reconcile the various contract records, given the time that had
passed and the lack of supporting documentation, doing so proved unsuccessful.
Further, we believe recommending that SSA attempt to reconcile the numerous
transactions at this date would be impractical. Accordingly, we will not recommend that
OTSO attempt to retroactively reconcile the records for this contract. Rather, we will
recommend that routine reconciliations be performed on future and ongoing contracts of
this nature and magnitude.

PROCEDURES COULD BE IMPROVED TO HELP ENSURE CONTRACTED GOODS
ARE RECEIVED

Our tests of computer equipment deliveries determined that 11 of the 50 deliveries
tested did not have sufficient evidence to support receipt of the computer equipment.
Specifically, for 7 of the 11 deliveries, the shipping records did not support the quantities
ordered and billed. For the four remaining deliveries, shipping records were not
available. During the course of the contract, the PO relied on the shipping contractors’
Web-based shipping records to confirm receipt of equipment but did not maintain copies
of these records. As such, to respond to our audit, OTSO revisited the Websites to
obtain the shipping records. However, according to OTSO, records for four deliveries
were no longer available.
Page 6 - The Commissioner


OTSO believed its contract oversight procedures were generally adequate to ensure
(1) SSA received the equipment ordered and (2) HP properly billed for this equipment.
OTSO acknowledged that the process of confirming and documenting receipt of
computer equipment delivered to the numerous components across SSA’s 10 regions
remains a challenge. Specifically, efforts to record, maintain, review, and manage the
receiving information can be cumbersome and time-consuming.

OTSO representatives stated that the component had considered implementing various
processes to better manage receiving information. An improvement under
consideration involves a Web-based application that would require that components
electronically certify receipt of computer equipment. A designated contact at each
component would be prompted to log on to a Website (using a personal identification
number) and certify the specific counts and types of computer equipment received. The
PO could then rely on the certified receiving information to monitor the contractor’s
performance and to make decisions to pay invoices.

CONCLUSION AND RECOMMENDATIONS
The type of equipment and unit prices HP charged to SSA agreed with the contract, and
SSA made accurate, timely payments. However, SSA’s contract oversight needed
improvement. We believe SSA should implement a comprehensive system for tracking
and reconciling key contract control numbers, such as quantities of computer equipment
ordered, delivered, and paid. Finally, SSA could not provide proof of receipt for all of
the computer equipment deliveries we tested.

Accordingly, we recommend that SSA:

1. For future and ongoing contracts involving large computer purchases, develop a
   comprehensive process for reconciling equipment orders, delivery receipts,
   quantities invoiced, and asset inventory lists.

2. Implement a system or process in which components can electronically certify the
   receipt of specific types and quantities of computer equipment received and billed.

AGENCY COMMENTS
The Agency agreed with our recommendations. The full text of the Agency’s comments
is included in Appendix D.




                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Contracting and Project Officer Responsibilities
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
BPA    Blanket Purchase Agreement
CO     Contracting Officer
HP     Hewlett Packard
OAG    Office of Acquisition and Grants
OBFM   Office of Budget, Finance and Management
OIG    Office of the Inspector General
OTSO   Office of Telecommunications and Systems Operations
PO     Project Officer
SSA    Social Security Administration
                                                                                    Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Obtained and reviewed the Blanket Purchase Agreement (BPA) and the Social
    Security Administration’s (SSA) seven BPA modifications.

•   Reviewed pertinent sections of SSA’s policies and procedures and relevant Federal
    laws and regulations.

•   Interviewed SSA’s Office of Telecommunications and Systems Operations staff to
    gain an understanding of contract oversight procedures related to the Hewlett
    Packard (HP) contract.

•   Reviewed Department of Health and Human Services, Project Officers’ Contracting
    Handbook Sections.

•   Obtained and reviewed the 164 call orders placed against the BPA. For the call
    orders that required multiple delivery locations, SSA attached a delivery spreadsheet
    that provided the quantity, type of equipment, and delivery information for each
    location.

•   We sampled 50 delivery locations from the 164 call orders to determine whether
    (1) computers and monitors were delivered as ordered, (2) the receipt of the
    computer equipment was properly supported, and (3) SSA was billed correctly.

•   Obtained the contractor invoices from the Office of Budget, Finance and
    Management. HP submitted 223 invoices to SSA.

     We sampled 50 of the 223 invoices for price testing.

•   Obtained HP's monthly Inventory Reports. 1

•   Compared each of the 223 invoices to the call orders to determine whether the
    quantity of computer equipment agreed.


1                                                                                                    th
 According to the BPA, the Contractor shall provide the Project and Contracting Officers, on the 10 of
every month, a complete inventory of all computers and monitors delivered. HP’s monthly Inventory
Report should include for each delivery site, at a minimum, the related call order number, SSA’s office site
code, the quantity and serial numbers of the computers and monitors delivered, delivery date, and
delivery address.



                                                    B-1
•   Tested HP and SSA’s compliance with the contract’s security requirements.

     We sampled 50 of the 1,183 personnel names HP submitted to SSA for a
      suitability determination.

HP’s invoices and monthly Inventory Reports were the only sources of serial numbers
for the computers and monitors HP billed and reported as delivered. However, HP’s
invoices did not consistently include serial numbers for the billed computer and
monitors. Therefore, we could not rely on the invoices to develop a complete population
of computers and monitors. Further, we were unable to reconcile the quantity of
computers and monitors detailed on HP’s monthly Inventory Reports .to the quantities
ordered and billed. Accordingly, we were unable to rely on these reports to establish an
accurate population of computers and monitors. Because both sources of equipment
serial numbers proved to be unreliable, we did not select a sample of computers and
monitors to determine whether the asset existed and met the technical specifications
outlined in the contract. Without such tests, we were unable to determine whether HP
fully complied with the contract terms.

The SSA entity audited was the Office of Acquisition and Grants in the Office of Budget,
Finance and Management. Our review of internal controls was limited to gaining an
understanding of Office of Telecommunications and Systems Operations’ procedures
used to monitor the contract. We conducted our audit between August 2009 and
May 2010 in Atlanta, Georgia, and Baltimore, Maryland. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          B-2
                                                                     Appendix C

Contracting and Project Officer Responsibilities
During the pre-solicitation phase, the Project Officer (PO) has the lead, and the
Contracting Officer (CO) operates as an advisor. Then, in the solicitation and
evaluation and award phases, the lead shifts to the CO, with the PO acting largely as an
advisor. In the post-award phase, the PO (acting as the CO’s authorized
representative, within the authority limits designated by the CO), assumes lead
responsibility for some functions and the CO for others.


PRESOLICITATION PHASE                                LEAD          SUPPORT
Market Research                                       PO             CO
Identify Requirements                                 PO             CO
Planning Schedule                                     CO             PO
Statement of Work                                     PO             CO
Technical Evaluation Criteria                         PO             CO
Special Approvals                                     PO             CO
Prepare SSA-393                                       PO             CO
SOLICITATION PHASE
Synopsis                                               CO              PO
Prepare Solicitation                                   CO              PO
Receipt of Offers                                      CO              PO
EVALUATION AND AWARD PHASE
Technical Evaluation                                   PO              CO
Business Evaluation                                    CO              PO
Discussions (If Required)                              CO              PO
Contract Preparation & Award                           CO              PO
Debriefing                                             CO              PO
POST-AWARD PHASE
Monitoring Technical Performance                       PO              CO
Reviewing Progress Reports                             PO              CO
Inspection and Acceptance                              PO              CO
Contract Administration                                CO              PO
                  Appendix D

Agency Comments
                                      SOCIAL SECURITY


MEMORANDUM


Date:     August 26, 2010                                                   Refer To:

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     James A. Winn /s/
          Executive Counselor
          to the Commissioner

Subject   Office of the Inspector General (OIG) Draft Report, “Contract Audit of Hewlett Packard”
:         (A-04-10-11012)—INFORMATION


          Thank you for the opportunity to review the draft report. Attached is our response to the
          report’s findings and recommendations.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Rebecca Tothero, Acting Director, Audit Management and Liaison Staff at (410) 966-
          6975.

          Attachment




                                                     D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTRACT AUDIT OF HEWLETT PACKARD” A-04-10-11012

Thank you for the opportunity to review the subject draft report. We appreciate that you
recognize the challenges we face “in overseeing the purchase of such a large quantity of
computer equipment.” Nevertheless, we agree with your statement that our “controls could be
improved to help ensure contractor performance,” and we are taking actions to make those
improvements.

We offer the following in response to your recommendations.

Recommendation 1 reads:

“For future and ongoing contracts involving large computer purchases, develop a comprehensive
process for reconciling equipment orders, delivery receipts, quantities invoiced, and asset
inventory lists.”

And Recommendation 2 reads:

“Implement a system or process in which components can electronically certify the receipt of
specific types and quantities of computer equipment received and billed.”

We agree with both of your recommendations. They are closely related, so we address them as
one below.

Background: As components need equipment of the type provided under the Hewlett Packard
(HP) contract, a project officer oversees activity at a high level. When we award a contract, a
Contracting Officer’s Technical Representative (COTR) takes on responsibility for managing
many of the activities related to that contract. As the vendor delivers equipment, the COTR
must ensure that a responsible official confirms receipt and that deliveries comply with contract
terms. This includes confirmation of quality, quantity, etc. When vendors submit invoices, the
COTR must certify that amounts billed matched equipment received. We then pay vendors
accordingly.

We follow this practice for the thousands of contractor invoices we pay each year, and we
comply with our policies in the vast majority of cases. You are recommending that we further
enhance those policies and develop electronic processes to assist us in tracking and certifying
receipt of computer equipment. We agree, and we are adding functionality to our Project
Tracking System (PTS) for that purpose.

This new PTS application will be available at all of our locations nationwide. We will use it to
track activity for all major workstation purchases made under contracts such as the one with HP.
As we award contracts and orders, we will populate PTS with detailed information about
contract terms and conditions, quantities, costs, and other information. As vendors make
deliveries, we will electronically certify receipt of equipment.




                                               D-2
In practice, the person receiving the equipment for the agency will access PTS, enter a site code,
the quantities of equipment delivered, and the date of receipt for each item. As part of this
process, we will use the domain personal identification number of the user to associate the
certification with the username. Once the COTR receives an invoice for certification, the COTR
will then be able to check the invoice against the PTS to verify equipment received and billed.
We expect to implement the new PTS functionality by December 2010.

As a further control, we will also utilize asset inventory lists more effectively. We receive these
directly from the vendor every month, and the lists provide detailed information about deliveries.
We will reconcile this information to corresponding orders.




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Valerie Ledbetter, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-11012.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
